TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    While Use of the Modernized e-File System
                    for Individual Tax Returns Has Increased,
                          the Legacy e-File System Is Still
                                Needed As a Backup



                                        September 19, 2012

                                Reference Number: 2012-40-116




   This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
    and information determined to be restricted from public release has been redacted from this document.

   Redaction Legend: 2(f) = Risk Circumvention of Agency Regulation or Statute




Phone Number | 202-622-6500
E-mail Address | TIGTACommunications@tigta.treas.gov
Website        | http://www.tigta.gov
                                                     HIGHLIGHTS


WHILE USE OF THE MODERNIZED                               Issues identified during pre-implementation
E-FILE SYSTEM FOR INDIVIDUAL TAX                          testing are not always addressed prior to the
RETURNS HAS INCREASED, THE                                filing season. In addition, processes used to
LEGACY E-FILE SYSTEM IS STILL                             validate and monitor the MeF system, including
                                                          system business rules designed to validate
NEEDED AS A BACKUP
                                                          basic requirements on a tax return, do not
                                                          ensure the accuracy of processing individual tax
Highlights                                                forms and schedules. As a result, the IRS
                                                          continues to have limited assurance that the
                                                          MeF system is accurately and effectively
Final Report issued on                                    processing individual tax returns.
September 19, 2012
                                                          Finally, transmitters reported additional burdens
Highlights of Reference Number: 2012-40-116               due to the restrictions placed on the use of the
to the Internal Revenue Service Commissioner              Legacy e-File system and were generally not
for the Wage and Investment Division.                     satisfied with the performance of the MeF
                                                          system.
IMPACT ON TAXPAYERS
                                                          WHAT TIGTA RECOMMENDED
The IRS implemented the final phase of the
transition from its existing electronic filing (e-file)   TIGTA recommended that the IRS develop a
platform, referred to as the Legacy e-File                comprehensive testing plan that ensures tax
system, to the Modernized e-File (MeF) system             returns are accurately processed through the
during the 2012 Filing Season. The MeF system             MeF system before it permanently retires the
provides real-time processing of tax returns and          Legacy e-File system. The testing plan should
extensions that will improve error detection,             include a review of all tax forms, schedules, and
standardize business rules, and expedite                  business rules applicable to individual tax
acknowledgments. The MeF system will replace              returns processed through the MeF system and
the Legacy e-File system as the primary e-filing          ensure that all programming issues identified
platform during the 2013 Filing Season.                   during pre-implementation testing are addressed
                                                          prior to the start of the filing season.
WHY TIGTA DID THE AUDIT
                                                          In their response to the report, IRS management
This audit was initiated because the IRS plans to         agreed to enhance their testing procedures
fully replace the Legacy e-File system with the           based on lessons learned. The IRS needs to
MeF system after the 2012 Filing Season. The              take the steps necessary to ensure all conditions
objective of this review was to evaluate the              identified during its testing activities are
continued implementation of the MeF system to             addressed prior to the 2013 Filing Season.
determine whether individual income tax returns
will be accurately and timely processed and
whether sufficient progress is being made to
replace the Legacy e-File system.
WHAT TIGTA FOUND
The MeF system has not shown that it can
consistently process large volumes of tax
returns for an extended period of time. Although
the IRS significantly increased the volume of tax
returns processed through the MeF system
during the 2012 Filing Season, the volume of tax
returns received was less than anticipated due
to performance issues and programming errors.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 19, 2012


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – While Use of the Modernized e-File System
                             for Individual Tax Returns Has Increased, the Legacy e-File System
                             Is Still Needed As a Backup (Audit # 201240012)

 This report presents the results of our review to evaluate the continued implementation of
 Modernized e-File system to determine whether individual income tax returns will be accurately
 and timely processed and whether sufficient progress has been made to replace the Legacy e-File
 system for individual tax returns for the 2013 Filing Season. This audit is included in our Fiscal
 Year 2012 Annual Audit Plan and addresses the major management challenges of Modernization
 and Implementing Major Tax Law Changes.
 Management’s complete response to the draft report is included in Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by
 the report recommendation. Please contact me at (202) 622-6510 if you have questions or
 Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (770) 617-6434.
                                      While Use of the Modernized e-File System
                                    for Individual Tax Returns Has Increased, the
                                  Legacy e-File System Is Still Needed As a Backup




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          The Modernized e-File System Has Not Consistently
          Processed Large Volumes of Tax Returns for an
          Extended Period of Time .............................................................................. Page 5
          Testing and Validation of the Modernized e-File System
          Do Not Ensure Tax Returns Are Accurately and
          Effectively Processed .................................................................................... Page 9
                    Recommendation 1:........................................................ Page 14

          Management and Performance of the Modernized e-File
          System Negatively Affected Transmitters During the
          2012 Filing Season........................................................................................ Page 15

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 18
          Appendix II – Major Contributors to This Report ........................................ Page 20
          Appendix III – Report Distribution List ....................................................... Page 21
          Appendix IV – Outcome Measures............................................................... Page 22
          Appendix V – Individual Tax Return Forms and Schedules Added
          for Processing in the Modernized e-File System Release 7.0 ....................... Page 24
          Appendix VI – Treasury Inspector General for Tax Administration
          Audit Reports on the Modernized e-File System .......................................... Page 30
          Appendix VII – Management’s Response to the Draft Report ..................... Page 31
                          While Use of the Modernized e-File System
                        for Individual Tax Returns Has Increased, the
                      Legacy e-File System Is Still Needed As a Backup




                                Abbreviations

e-file(d); e-filing      Electronically file(d); electronic filing
IRS                      Internal Revenue Service
MeF                      Modernized e-File
PDF                      Portable Document Format
TIGTA                    Treasury Inspector General for Tax Administration
XML                      Extensible Markup Language
                                 While Use of the Modernized e-File System
                               for Individual Tax Returns Has Increased, the
                             Legacy e-File System Is Still Needed As a Backup




                                             Background

The Modernized e-File (MeF) system is a modernized, Internet-based electronic filing (e-file)
platform that is replacing the current Internal Revenue Service (IRS) e-filing system (referred to
as the Legacy e-File system). Tax returns and attachments submitted through the MeF system
use extensible markup language (XML), which is a different format than is used in the Legacy
e-File system.1 Once fully implemented, the MeF system will provide a single method for filing
all business and individual tax returns, forms, and schedules via the Internet. The MeF system
provides real-time processing of tax returns that improves error detection, standardizes business
rules, and expedites acknowledgments. The MeF system also allows for attachments in Portable
Document Format (PDF).2 Figure 1 provides a comparison of key differences between the MeF
and Legacy e-File systems.
               Figure 1: Comparison of the MeF and Legacy e-File Systems

      Condition                        MeF System                              Legacy e-File System
                                                                     American Standard Code for Information
Data Format                  XML.
                                                                     Interchange.
Attachments                  Accepted in PDF.                        No attachments accepted.
                                                                     Batch return system with batches
                             Transaction-based system –
Transmissions                                                        processed three times daily to process
                             processed upon receipt.
                                                                     transmissions.
                             Acknowledgments returned in             Acknowledgments returned within
Acknowledgements
                             real-time.                              two calendar days of receipt.
                             Business rules for each error           Error reject codes that may address
Tax Return Errors
                             condition.                              multiple conditions.
Processing Year              Year-round processing.                  No e-filed tax returns after October 15.
                                                                     Prior year tax returns are not accepted via
Prior Year Returns           Prior year tax returns accepted.
                                                                     e-file.
Source: IRS MeF and Legacy e-File systems documentation.




1
  XML can be used, especially on the World Wide Web, to create a tagging scheme that allows elements of a
document to be marked according to their content rather than their format.
2
  The PDF is a file format for representing documents in a manner that is independent of the original application
software, hardware, and operating system used to create those documents.
                                                                                                             Page 1
                                 While Use of the Modernized e-File System
                               for Individual Tax Returns Has Increased, the
                             Legacy e-File System Is Still Needed As a Backup



MeF system Release 7.0 includes 129 additional tax forms and schedules
The IRS implemented MeF system processing for individual tax returns in three phases. The
IRS implemented the first phase (Release 6.1) during the 2010 Filing Season3 and the second
phase (Release 6.2) during the 2011 Filing Season. The IRS implemented the third phase
(Release 7.0) during the 2012 Filing Season. The current Legacy e-File system is scheduled to
be retired at the end of the 2012 Filing Season (October 2012).
Below is a general description of the functionality included in each implementation phase of the
MeF system.
    MeF System Release 6.1 – This phase of MeF system implementation included Form 1040,
    U.S. Individual Income Tax Return; Form 4868, Application for Automatic Extension of Time
    to File U.S. Individual Income Tax Return; and 21 forms and schedules related to Form 1040
    for Tax Year4 2009.
    MeF System Release 6.2 – Release 6.2 did not provide for the filing of any additional tax
    forms or schedules. The primary difference between Release 6.1 and 6.2 was the ability for
    individual taxpayers to file prior year tax returns. Beginning in the 2011 Filing Season,
    individual taxpayers were able to file both their Tax Years 2009 and 2010 tax returns using
    the MeF system. IRS management informed us that the focus of Release 6.2 was system
    stability, performance, and tuning.
    MeF System Release 7.0 – This final release includes 129 individual tax forms for Tax
    Year 2011 and prior year processing support for the original forms deployed in Release 6.1
    for Tax Years 2009 and 2010. IRS management informed us that Release 7.0 also contained
    additional system performance improvements. Appendix V details the specific tax forms and
    schedules that were added to the MeF system for the 2012 Filing Season.

Individual tax returns processed through the MeF system must pass validation
rules to be accepted for processing
The MeF system uses three levels of validation. Once a tax return has passed all three levels of
validation, it will enter the IRS’s tax return pipeline processing. While this is a different
approach to validating tax returns than the one currently employed by the Legacy e-File system,
all of the Legacy e-File system’s error reject codes are included in the three levels of MeF
system validation. The three levels of validation include:
    Level 1 – Schema Validation – A MeF system tax return is divided into a series of different
    data structures. Schemas provide the basic definitions for the data elements within each data

3
  The period from January through mid-April when most individual income tax returns are filed. However,
individuals may continue to file tax returns through October if they apply for an extension of time to file.
4
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                          Page 2
                                 While Use of the Modernized e-File System
                               for Individual Tax Returns Has Increased, the
                             Legacy e-File System Is Still Needed As a Backup



    structure and the interrelationships among the data elements (what is required, field length,
    data type, allowable field values, etc.). The MeF system verifies the accuracy of the data
    format in the tax return by validating each tax return against the individual schemas. If an
    error is found during the schema validation, the tax return is rejected.
    Level 2 – National Account Profile5 Checks – The taxpayer, spouse, and dependent name
    controls and Social Security Numbers contained on the tax return must match the information
    on the National Account Profile before the IRS will accept the tax return for processing. The
    MeF system conducts the same basic verification as the Legacy e-File system. As with
    schema validations, a tax return is rejected if it fails one or more of the National Account
    Profile validations.
    Level 3 – Business Rule Check – The IRS established criteria or business rules that each tax
    return must pass before it can be processed electronically. The business rules are designed to
    validate basic requirements on a tax return, such as income limits for tax credits and
    deductions and the need to attach a specific schedule if certain conditions are present on the
    tax return. A tax return will be rejected if one or more of the business rules are not met.

Prior Treasury Inspector General for Tax Administration (TIGTA) reviews raised
concerns with the implementation of the MeF system
The TIGTA conducted four reviews of the development and implementation of the MeF system
for individual tax return processing between August 2009 and September 2011.6 These reviews
raised the following concerns with the management of MeF system development as well as the
ability of the system to accurately process tax returns.
        System Integration Testing of MeF Release 6.0 did not include testing of all system
         application requirements. Still other requirements failed testing, and no indication was
         provided to show the errors identified were corrected before implementation.
        Controls were not adequate to manage all of the system requirements, security
         weaknesses, issues, and action items.
        Processes used to test and monitor the system did not ensure business rules designed to
         validate basic requirements on a tax return were working as intended.
        Lower than expected tax return volumes prevented the IRS from assessing the ability of
         the system to process large volumes of tax returns.



5
  The National Account Profile is a compilation of selected entity data from the IRS Master Files, which are the
databases that store various taxpayer information. The National Account Profile includes all valid and invalid
taxpayer entity information.
6
  See Appendix VI for a list of these reports.
                                                                                                             Page 3
                            While Use of the Modernized e-File System
                          for Individual Tax Returns Has Increased, the
                        Legacy e-File System Is Still Needed As a Backup



      Key functionality to attach scanned documents to individual tax returns was not being
       promoted or used.
This review was performed at the Wage and Investment Division Office of Submission
Processing in Atlanta, Georgia, and the Information Technology organization’s Office of
Applications Development in New Carrollton, Maryland, during the period January through
June 2012. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                         Page 4
                                   While Use of the Modernized e-File System
                                 for Individual Tax Returns Has Increased, the
                               Legacy e-File System Is Still Needed As a Backup




                                        Results of Review

The Modernized e-File System Has Not Consistently Processed Large
Volumes of Tax Returns for an Extended Period of Time
The IRS has significantly increased the number of tax returns processed through the MeF system
since it first began processing individual tax returns in Processing Year7 2010. As of
April 17, 2012, the MeF system had processed 72.4 million individual tax returns, significantly
more than the 8.7 million tax returns processed by the system during a comparable period last
year. However, the number of tax returns processed through the MeF system during the 2010
through 2012 Filing Seasons8 does not equate to the number of e-filed tax returns the IRS
anticipates receiving during the 2013 Filing Season.
On May 1, 2012, the IRS announced that the MeF system will be the only e-filing platform for
the 2013 Filing Season. IRS management advised us that the IRS will maintain the Legacy
e-File system only as a backup for Federal tax returns. However, the IRS has yet to decide the
individual tax forms and schedules that the Legacy e-File system will accept. IRS management
noted the high costs of maintaining dual processing systems for both the IRS and tax return
transmitters as the main reason for its decision. The IRS estimates that maintaining and
operating the Legacy e-File system will cost the IRS more than $7 million for Fiscal Year 2012.
Nevertheless, performance problems during the 2012 Filing Season and continued concerns
about the accuracy of tax return processing could risk the success of the IRS’s e-File Program
and the IRS’s ability to successfully complete the processing of individual tax returns during the
2013 Filing Season.

Volumes of tax returns processed through the MeF system have been
significantly lower than expectations and goals
In November 2011, the IRS announced that all transmitters that transmitted one million or more
individual tax returns during the 2011 Filing Season must use the MeF system to e-file tax
returns during the 2012 Filing Season. The IRS believed limiting the use of the Legacy e-File
system was necessary to be able to fully evaluate the success of the MeF system.
The IRS’s decision to limit the use of the Legacy e-File system resulted in 72.4 million
individual tax returns being processed through the MeF system through April 17, 2012, a
732.2 percent increase over the same period last year. Although the IRS significantly increased


7
    The calendar year in which the tax return or document is processed by the IRS.
8
    As of April 17, 2012.
                                                                                            Page 5
                                While Use of the Modernized e-File System
                              for Individual Tax Returns Has Increased, the
                            Legacy e-File System Is Still Needed As a Backup



the volume of tax returns processed through the MeF system during the 2012 Filing Season, IRS
management stated that the volume of tax returns received by the MeF system was still less than
anticipated. Figure 2 provides the number of tax returns processed through the MeF system
during the 2010 through 2012 Filing Seasons compared to the total number of e-filed tax returns
processed through both the Legacy e-File and MeF systems through April 17, 2012, for the
2012 Filing Season.
             Figure 2: Comparison of Tax Returns Processed Through
               the MeF System During the 2010–2012 9 Filing Seasons
          Compared to All Tax Returns e-Filed During the 2012 Filing Season




       Source: TIGTA analyses of filing season return volumes during the 2010–2012 Filing Seasons.

Performance issues and programming errors reduced the number of tax returns
processed through the MeF system
On at least two different occasions, the IRS had to suspend MeF system processing to correct
system performance issues. This resulted in delays in processing individual tax returns.



9
 During the 2010 and 2011 Filing Seasons, MeF processing of individual tax returns only supported the Form 1040,
Form 4868, and 21 forms and schedules related to Form 1040.
                                                                                                        Page 6
                                 While Use of the Modernized e-File System
                               for Individual Tax Returns Has Increased, the
                             Legacy e-File System Is Still Needed As a Backup



MeF system performance issues interrupted tax return transmissions on the first day of the
2012 Filing Season
The IRS successfully opened the MeF system at 9:00 a.m. Eastern Standard Time on
January 17, 2012, for individual tax returns and extensions. However, the MeF system was
taken offline for 18 hours shortly after the IRS began processing individual tax returns to correct
performance issues that were delaying the transmission of tax return acknowledgements.10
Taxpayers and transmitters were unable to e-file their tax returns during this time. As a result,
the IRS received almost 1.4 million fewer e-filed tax returns on January 17, 2012, when
compared to the same day during the previous filing season.
Prior to shutting down the MeF system to correct the performance issues, acknowledgements
were taking approximately three hours to generate. According to the IRS, transmission
acknowledgements are to be returned in real-time with a delay of no more than two hours during
peak processing periods. IRS management stated that discontinuing some MeF system
background processes not related to the processing of tax returns and repairing some of the data
tables in the MeF database returned MeF processing to acceptable levels. The IRS was able to
reopen the MeF system to accept tax return transmissions at noon on January 18, 2012.
IRS management noted that the performance issues experienced on January 17, 2012, might have
been caused by the large volume of tax returns received by the MeF system during the first day
of processing. According to the IRS, the volume of returns received by the MeF system during
the first day of processing was one of the largest the IRS had ever received to date.
Programming issues delayed the transmission of accepted tax return data to downstream
processing systems
In late January 2012, MeF system programming problems resulted in the creation of incomplete
and/or duplicate output files containing accepted tax return data that other IRS systems need to
continue with the processing of the tax returns. This caused delays in sending the output files to
downstream processing systems. The IRS estimated that the programming problem delayed the
processing of approximately 7.8 million individual tax returns. The majority of these tax returns
were processed through the MeF system from February 2 through 11, 2012. The IRS stated that
the programming problems were corrected and all delayed tax returns were sent to other
downstream processes by February 18, 2012.
The IRS encouraged transmitters to use the Legacy e-File system instead of the MeF system after
errors in MeF system programming were identified in February. The IRS issued a QuickAlert11


10
   Taxpayers who e-file their tax return receive an electronic notification from the IRS called an acknowledgement
when the tax return has been either rejected or accepted for processing.
11
   QuickAlerts is a free online service that sends e-file messages, within seconds, to all “subscribers.” These
messages provide up-to-date information on events that affect e-file Transmitters, software developers, and
Authorized IRS e-File Providers.
                                                                                                            Page 7
                               While Use of the Modernized e-File System
                             for Individual Tax Returns Has Increased, the
                           Legacy e-File System Is Still Needed As a Backup



on February 10, 2012, informing transmitters that the restrictions on the Legacy e-File system
were temporarily lifted and encouraged them to use the Legacy e-File system until further notice.
The IRS stated that the processing issues were resolved. However, the IRS encouraged the use
of the Legacy e-File system until further notice to ensure future processing ran smoothly and to
provide adequate time to complete processing of the affected returns. The IRS did not reinstate
the restrictions on the use of the Legacy e-File system during the filing season. IRS management
informed us that they intentionally left the decision of which system to use up to the individual
transmitters.
The volume of tax returns submitted through the MeF system was affected significantly after the
IRS encouraged transmitters to use the Legacy e-File system to e-file tax returns. Prior to the
IRS’s alert, approximately 84.3 percent of e-filed individual tax returns were processed through
the MeF system. As of April 17, 2012, the percentage of accepted e-filed individual tax returns
processed through the MeF system decreased to 59.6 percent.
The number of tax returns accepted daily through the Legacy e-File system surpassed the
MeF system as the primary e-filing platform after the IRS identified the processing issues in
February 2012. Figure 3 below provides a comparison of tax returns accepted daily through the
MeF system and the Legacy e-File system from January 17 through April 17, 2012.
           Figure 3: Comparison of Individual Tax Returns Accepted Daily
                     Through the MeF and Legacy e-File Systems
                          From January 17–April 17, 2012




   Source: TIGTA analyses of filing season tax return volumes through April 17, 2012.


                                                                                          Page 8
                                     While Use of the Modernized e-File System
                                   for Individual Tax Returns Has Increased, the
                                 Legacy e-File System Is Still Needed As a Backup



Each year more individuals file their tax return electronically. Electronic filing provides
increased tax return accuracy and reduces IRS processing costs. However, the IRS must ensure
that the e-file platform is stable and capable of processing large numbers of tax returns
continually throughout the tax return filing season. Disruptions to tax return processing can
significantly increase costs to the IRS, increase taxpayer burden, increase the risk of allowing
taxpayers erroneous tax benefits, and erode taxpayers’ confidence in the IRS’s ability to timely
and accurately process tax returns. It is imperative that the IRS ensure that the MeF system can
timely and accurately process the anticipated number of individual tax returns it expects to
receive in a single filing season before it discontinues the use of the Legacy e-File system.

Testing and Validation of the Modernized e-File System Do Not
Ensure Tax Returns Are Accurately and Effectively Processed
The IRS conducts pre-implementation system testing before the filing season to assess whether
the MeF system is ready for implementation. A post-implementation review of tax returns that
are processed through the MeF system is performed during the filing season to spot check that
tax returns are being processed accurately by the system. Neither of these reviews prevented
significant programming issues that affected the 2012 Filing Season. This resulted in processing
delays for almost eight million tax returns. In addition, we identified business rules that were
either accepting or rejecting tax returns in error.

Issues identified during the pre-implementation testing process are not always
addressed prior to the filing season
Pre-implementation testing of the MeF system was designed to ensure MeF software changes are
tested and comply with system requirements, the MeF system performs within established
performance requirements, and the MeF system properly interfaces with other IRS systems.
Prior TIGTA audits12 identified concerns with the IRS’s pre-implementation testing of the
MeF system. For example:
          Processes were not in place to ensure identified errors were corrected before the
           beginning of the filing season.
          MeF system release requirements were not tested or working as intended prior to the
           beginning of the filing season.
Testing during the current audit identified similar issues. Additionally, analyses of the
pre-implementation testing documentation found that one or more of the IRS’s
pre-implementation tests had identified concerns with MeF system performance, but there was
no indication that these concerns were addressed before the 2012 Filing Season.


12
     See Appendix VI for a list of these reports.
                                                                                               Page 9
                             While Use of the Modernized e-File System
                           for Individual Tax Returns Has Increased, the
                         Legacy e-File System Is Still Needed As a Backup



Deficiencies in the pre-implementation testing resulted in MeF system programming errors that
delayed the processing of tax returns accepted through the MeF system. Tax returns accepted
through the MeF system from January 17 through March 12, 2012, took twice as long to process
as tax returns processed through the Legacy e-File system. Processing times averaged 5.9 days
through the MeF system compared to 2.3 days through the Legacy e-File system.
IRS management advised us that pre-implementation performance testing simulated the
processing of a large number of individual tax returns during an eight-hour period. Management
noted that test results indicated the MeF system would meet expected performance goals.
However, they acknowledged that they did not have the capability to test the levels of sustained
input volumes in the test environment and the testing environment does not mimic the MeF
system production environment.
MeF system programming problems identified in January 2012 affected the accuracy of tax
return information available to taxpayers
Taxpayers were not able to obtain the status of their tax refunds because programming problems
delayed the tax refund information from being loaded into the Internet tool “Where’s My
Refund.” The status of a tax refund should be available in the “Where’s My Refund” tool within
72 hours after a tax return is e-filed. Transmitters indicated that delays in the information being
available caused significant taxpayer anxiety as taxpayers were concerned that their tax returns
had not been successfully transmitted and that they might not receive their refunds.
Additionally, the results of a limited survey of transmitters showed that the delay in refund
information on “Where’s My Refund” also created a significant burden on them. Five of the
10 transmitters that responded to our survey reported problems with “Where’s My Refund” or
with the IRS providing inaccurate information to taxpayers during the 2012 Filing Season.
Transmitters indicated the problems with the “Where’s My Refund” tool caused them to receive
higher than normal call volumes and complaints from taxpayers concerned about the status of
their tax returns.
MeF system processing issues delayed the availability of accurate and consistent tax return
information on IRS systems
Tax return information processed by the MeF system is stored on several databases that are used
by IRS employees to access taxpayer accounts. IRS employees use tax return information to
update taxpayers’ accounts or when responding to taxpayer inquiries. Information on one of the
databases was not updated timely for tax returns accepted by the MeF system during the
2012 Filing Season.
We notified the IRS of this concern on February 14, 2012. At that time, the IRS attributed the
inaccurate information to the programming issues that delayed the transmission of accepted tax
return data to downstream processing systems early in the filing season. Since then, the IRS has
begun conducting further research to identify the root causes of the issues identified.

                                                                                           Page 10
                                 While Use of the Modernized e-File System
                               for Individual Tax Returns Has Increased, the
                             Legacy e-File System Is Still Needed As a Backup



Post-implementation validation and monitoring of the MeF system is not
sufficient to ensure that tax returns are accurately processed
Approximately 15,294 e-filed tax returns processed through the MeF system during the
2012 Filing Season were accepted in error. These tax returns resulted in taxpayers possibly
receiving approximately $4.8 million in benefits to which they were not entitled.13
Processes used to validate and monitor the MeF system, including system business rules
designed to validate basic requirements on a tax return, do not ensure the accuracy of processing
of individual tax forms and schedules. Ineffective or insufficient monitoring of tax return
processing increases the risk that individual tax returns processed through the MeF system will
be erroneously accepted or rejected. This risk might increase if the MeF system is the only e-file
platform the IRS uses for the 2013 Filing Season.
In our Fiscal Year 2011 audit report,14 we recommended that the IRS develop a comprehensive
testing plan to ensure that a representative sample of all tax forms, schedules, and business rules
applicable to individual tax returns transmitted through the MeF system (rejected and accepted)
throughout the filing season are reviewed and all business rules applicable to those tax returns
are verified. IRS management disagreed with our recommendation, stating that the MeF system
is developed under its standard systems development approach, which included extensive
validation prior to its release.
However, earlier processes are not in place to ensure errors identified during pre-implementation
testing are corrected before the MeF system begins accepting tax returns. Pre-implementation
testing also does not ensure that all MeF system validation rules are tested prior to accepting tax
returns for processing. As a result, extensive post-implementation review is necessary to ensure
that specific business rules, tax forms, and schedules are being processed correctly through the
MeF system.
A limited review of tax returns significantly restricted the IRS’s ability to determine if the
MeF system is accurately processing individual tax returns
The IRS’s plan to validate and monitor the MeF system during the filing season was too limited
to provide assurance that the MeF system was processing tax returns accurately. One specific
objective of the testing was to ensure that individual tax return submissions received by the MeF
system were accurately processed by conducting a review of randomly selected submissions.



13
   See Appendix IV for details. The 15,294 is the sum of 5,870 tax returns that received a benefit for an exemption
claimed for a Social Security Number that was previously used on another tax return and ****2(f)***************
************************************************2(f)*****************************************
**************2(f)*********.
14
   TIGTA, Ref. No. 2011-40-131, Low Participation and Tax Return Volumes Continue to Hinder the Transition of
Individual Income Tax Returns to the Modernized e-File System (Sept. 2011).
                                                                                                         Page 11
                             While Use of the Modernized e-File System
                           for Individual Tax Returns Has Increased, the
                         Legacy e-File System Is Still Needed As a Backup



However, the implementation of the IRS’s review plans was limited by available resources and
did not ensure that all business rules were included in the sample tested.
For the 2012 Filing Season, the IRS developed a two-phase plan to test the processing of
individual tax returns once Release 7.0 was implemented.
      The first phase of testing consisted of a controlled launch that occurred a week before the
       MeF system was officially deployed. During the controlled launch, the IRS requested
       that a select group of transmitters transmit low volumes of tax returns through the MeF
       production system to confirm that the transmitters could successfully transmit tax returns.
       As part of the controlled launch, the IRS also analyzed trends in error rates and manually
       reviewed a small sample of the tax returns that were received to determine if the MeF
       system business rules were accurately applied.
      The second phase of testing, the Post Production Review, began with the start of the
       2012 Filing Season and was to be conducted intermittently until error fallout rates
       reached acceptable levels. The testing plan consisted of an initial review to be performed
       during the first two weeks of the filing season and the option of two subsequent
       follow-up review sessions scheduled at approximately six week intervals. The initial
       review focused on identifying areas with potential for erroneous processing with the goal
       of enabling the IRS to more effectively monitor production processing and identify,
       evaluate, and correct processing issues early in the filing season to minimize taxpayer
       burden.
The IRS’s reliance on manual reviews to perform its tax return validation restricts the number of
tax returns and business rules that the IRS is able to review. For example, the IRS only reviewed
0.123 percent (2,250 of 1,832,180) of the rejected tax return submissions and 0.004 percent (426
of 10,879,851) of the accepted tax returns received during the testing period. Given the limited
number of tax returns reviewed, the IRS could not be assured that significant errors did not exist.
The MeF system individual tax return Post Production Review plan did not include an
adequate review of new tax forms and schedules
The IRS did not take additional steps to ensure that it reviewed a sufficient number of new tax
forms and schedules. The IRS only reviewed the new forms and schedules if they were included
in one of the tax returns that the IRS randomly selected for review.
MeF Release 7.0 included the addition of 129 individual tax forms and schedules not previously
accepted by the MeF system. The IRS did not review 88 (68.2 percent) of the 129 new forms
and schedules added to MeF Release 7.0 during the initial phase of its Post Production Review.
The Post Production Review documentation indicated that not all of the new forms and schedules
could be reviewed because they had not been received at the time the review was conducted. We
agree the IRS can only review those forms and schedules filed through the MeF system as of a
given date. However, 51 (58 percent) of the 88 forms and schedules the IRS did not review

                                                                                           Page 12
                                 While Use of the Modernized e-File System
                               for Individual Tax Returns Has Increased, the
                             Legacy e-File System Is Still Needed As a Backup



during the initial phase of the Post Production Review had been filed through the MeF system at
the time of its initial review. As a result, the IRS has only limited assurance that a majority of
the new forms and schedules are being accurately processed by the MeF system.
The MeF system incorrectly accepted tax returns into the system for processing
The MeF system validates the accuracy of tax returns by ensuring that all tax returns meet
business rules designed to ensure the tax return is accurate. As of April 17, 2012, 63.7 million
tax returns were accepted and 8.6 million tax returns were rejected, with a cumulative reject rate
of 11.9 percent. However, tax returns with inaccurate information were incorrectly accepted for
processing into the MeF system.
        Tax returns were accepted even though the tax return claimed an exemption for a
         Taxpayer Identification Number that was previously claimed on another tax return. An
         individual can only be used once in each tax year for the purposes of claiming an
         exemption. The tax returns were incorrectly accepted due to programming errors in the
         MeF business rules that reject tax returns with multiple Taxpayer Identification Number
         uses. We informed the IRS of the issue on February 1, 2012, and the IRS corrected the
         business rules. Before the corrections were implemented, the MeF system incorrectly
         accepted 5,870 tax returns claiming exemptions for Taxpayer Identification Numbers that
         were already used, which incorrectly reduced the tax liabilities on these tax returns by
         approximately $3.1 million.
        Taxpayers are allowed to claim a higher standard deduction amount on their tax return if
         the taxpayer or the taxpayer’s spouse is age 65 or older.15 ********2(f)***********
         *************************************2(f)*******************************
         *************************************2(f)******************************
         *************************************2(f)******************************
         *************************************2(f)*****************************
         ******************2(f)***********************. We estimate the IRS could allow
         approximately $8.7 million in erroneous benefits over the next five years. We informed
         the IRS of our concerns on February 28, 2012. The IRS responded that it did not have
         the authority to reject these tax returns. ************2(f)***********************
         *********************************2(f)***********************************
         *********************************2(f)**********************************
         *********************************2(f)***********************************
         ******************************2(f)*************************.




15
   The standard deduction increases by $1,400 for taxpayers filing single or head of household. The standard
deduction increases by $1,150 for each primary or spouse taxpayer age 65 or older when the filing status is married
filing jointly or married filing separately.
                                                                                                           Page 13
                             While Use of the Modernized e-File System
                           for Individual Tax Returns Has Increased, the
                         Legacy e-File System Is Still Needed As a Backup



Transmitter inquiries are used to validate the accuracy of tax returns in the MeF system
The IRS created an electronic mailbox for the 2012 Filing Season that allowed transmitters and
States to submit questions and concerns about the MeF system. Submissions to the mailbox
indicated transmitters experienced issues with business rules causing tax returns to be incorrectly
rejected. As of February 29, 2012, transmitters had questioned and the IRS had confirmed
184 issues with the MeF system, including 38 business rules that were incorrectly rejecting tax
returns. The IRS indicated that the issues with these business rules had either been resolved or
were being resolved.
While feedback from transmitters is an effective way of identifying business rules that are
incorrectly rejecting tax returns, it incorrectly places the burden of ensuring the MeF system is
accurately processing tax returns on transmitters. In addition, accuracy issues experienced by the
transmitters create burden on the transmitters and taxpayers. Relying on transmitters to identify
MeF system errors can also reduce transmitter confidence in the MeF system.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should develop a
comprehensive testing plan to incorporate the pre-implementation test results into the
post-implementation quality review. The comprehensive testing plan should ensure that all
programming issues are addressed prior to the start of the filing season. In addition, all tax
forms, schedules, and business rules applicable to individual tax returns through the MeF system
(rejected and accepted) should be reviewed to ensure tax returns are accurately processed
through the MeF system before the IRS permanently retires the Legacy e-File system.
       Management’s Response: The IRS will enhance its test procedures based on lessons
       learned, but the IRS will do so in a way that conforms to IRS enterprise standards. The
       MeF system was developed under the guidance of Internal Revenue Manual 2.16.1,
       Enterprise Life Cycle–Enterprise Life Guidance. The Enterprise Life Cycle is the
       approach used by the IRS to manage initiatives and implement changes in business
       information systems. It provides a comprehensive project management structure for
       systems development that includes extensive planning, risk analysis, development,
       testing, milestone reviews, and certification processes. Testing activities include System
       Acceptability Tests, System Integration Tests, Government Acceptance Tests, and Final
       Integration Tests. Prior to deployment into the production environment, MeF Release 7
       used in the 2012 Filing Season was cleared by the Submission Processing Executive
       Steering Committee as having met and passed all milestone objectives and requirements.
       Office of Audit Comment: The IRS needs to take the steps necessary to ensure all
       conditions identified during its testing activities are addressed prior to the 2013 Filing
       Season. Further, the IRS should develop a comprehensive plan that incorporates the
       results of the IRS’s pre-filing season testing with its efforts to monitor the performance of

                                                                                           Page 14
                                    While Use of the Modernized e-File System
                                  for Individual Tax Returns Has Increased, the
                                Legacy e-File System Is Still Needed As a Backup



           the MeF system and the accuracy of tax returns processed through the MeF system
           throughout the 2013 Filing Season. The MeF system will be the primary
           e-filing platform during the 2013 Filing Season. As such, any issues that may occur with
           the MeF system could negatively impact taxpayers and significantly impact the IRS’s
           ability to timely and accurately process individual tax returns.

Management and Performance of the Modernized e-File System
Negatively Affected Transmitters During the 2012 Filing Season
The IRS’s restriction on the use of the Legacy e-File system successfully increased participation
in the MeF system during the 2012 Filing Season. However, transmitters reported additional
burdens preparing for the 2012 Filing Season, such as increased costs caused by the late notice of
the requirement to use MeF. In addition, transmitters were generally not satisfied with the
performance of the MeF system during the 2012 Filing Season.

The IRS’s efforts to increase participation in the MeF system negatively affected
transmitters
In November 2011, the IRS announced that all transmitters that e-filed one million or more
individual tax returns during the 2011 Filing Season would be required to use the MeF system to
process their e-filed tax returns during the 2012 Filing Season. In addition, the IRS limited the
daily use of the Legacy e-File system to three one-hour windows a day. The IRS stated that the
Legacy e-File system volume limitation was necessary to ensure the ultimate success of the MeF
system.
During the 2012 Filing Season, the number of transmitters supporting the MeF system increased
by 185 percent. State participation increased by 40 percent when compared to the previous filing
season. Figure 4 provides a comparison of the number of transmitters and States participating in
the MeF system during the 2011 and 2012 Filing Seasons for individual tax returns.
                                 Figure 4: Comparison of MeF System
                                  Transmitters Through April 17, 2012

          Number of Transmitters                                    201116         2012        % Change
          Total Transmitters                                          45             92             104%
          Transmitters Participating in the MeF System
                 Transmitters                                         20             57             185%
                 States                                               25             35             40%
         Source: TIGTA analysis of 2012 MeF system transmitter statistics through April 17, 2012.


16
     Data for the 2011 Filing Season are through April 18, 2011.
                                                                                                           Page 15
                                While Use of the Modernized e-File System
                              for Individual Tax Returns Has Increased, the
                            Legacy e-File System Is Still Needed As a Backup



We surveyed 13 transmitters that were required to use the MeF system as their primary e-filing
platform during the 2012 Filing Season to obtain feedback on the impact of 1) the IRS’s mandate
to use the MeF system and 2) restrictions on the use of the Legacy e-File system on their e-file
operations. Ten transmitters responded. These transmitters processed approximately
57.6 million (77.8 percent) of all individual tax returns through the MeF system through
April 17, 2012. Of the 10 respondents, seven transmitters reported that the IRS mandate to use
the MeF system during the 2012 Filing Season negatively affected their businesses. For
example:
        Five transmitters indicated that the mandate was burdensome due to the late notice, which
         caused them to either incur unplanned costs or expedite their implementation plans or
         forced them to redirect development resources that impaired research and development in
         new products.
        Three transmitters indicated that the mandate created issues with State tax returns
         because a number of States did not accept tax returns through the MeF system.
        Two transmitters thought that the mandate put the system at risk because the late notice
         did not allow proper time for testing the MeF system or that the restrictions on the use of
         the Legacy e-File system were misguided because the IRS removed the contingency if
         issues existed with the MeF system.

The performance of the MeF system did not meet transmitters’ expectations
The MeF system performance issues during the 2012 Filing Season create uncertainty about the
MeF system’s ability to successfully process all e-filed tax returns in the future. The IRS
originally planned to retire the Legacy e-File system after the 2012 Filing Season, but later
decided to maintain the Legacy e-File system as a failover for the 2013 Filing Season.
Transmitters are faced with a similar decision and must either incur additional costs to maintain
the ability to submit tax returns through the Legacy e-File system or risk that they may not be
able to e-file tax returns if the MeF system encounters serious issues.
Our surveys of the transmitters indicate that they generally had concerns with the performance of
the MeF system during the 2012 Filing Season. Only three (30 percent) of the 10 transmitters
who responded to our survey rated the system as “Successful” or “Very Successful.”17 The
transmitters were primarily concerned with the processing delays and other technical issues with
the MeF system that negatively affected their ability to process tax returns and serve their
customers.
In addition, transmitters are not confident that the MeF system will be able to completely replace
the Legacy e-File system during the 2013 Filing Season. Of the 10 transmitters that responded,

17
  TIGTA survey questions asked transmitters to rate the MeF system based on their experience during the
2012 Filing Season. Ratings included: Very Successful, Successful, Moderately Successful, and Failure.
                                                                                                          Page 16
                             While Use of the Modernized e-File System
                           for Individual Tax Returns Has Increased, the
                         Legacy e-File System Is Still Needed As a Backup



four expressed concerns with the IRS’s initial plan to discontinue the use of the Legacy e-File
system because of the 2012 Filing Season issues. Two transmitters indicated that they would
rather use the Legacy e-File system until the MeF system issues were corrected.
Transmitters’ lack of confidence in the MeF system and the IRS’s inability to ensure that the
system can accurately and effectively process individual tax returns raise significant concerns
about the IRS’s decision to not use the Legacy e-File system to process tax returns during the
2013 Filing Season. To avoid any disruptions to the processing of tax returns, the IRS must
ensure that the MeF system can timely and accurately process the number of individual tax
returns it expects to receive in a single filing season before it discontinues the use of the
Legacy e-File system.




                                                                                          Page 17
                                 While Use of the Modernized e-File System
                               for Individual Tax Returns Has Increased, the
                             Legacy e-File System Is Still Needed As a Backup



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the continued implementation of the MeF system to
determine whether individual income tax returns will be accurately and timely processed and
whether sufficient progress has been made to replace the Legacy e-File system for individual tax
returns for the 2013 Filing Season.1 To accomplish this objective, we:
I.       Determined whether the IRS made sufficient progress to replace the Legacy e-File system
         for individual tax returns for the 2013 Filing Season.
         A. Obtained documentation needed to determine whether the MeF system provides the
            same processing capabilities as the Legacy e-File system.
         B. Surveyed 34 State taxing authorities and 13 approved MeF system transmitters
            regarding individual tax returns transmitted through the MeF system during the
            2012 Filing Season and additional concerns with the MeF system processing season.
II.      Determined whether the IRS is correctly accepting and rejecting individual tax returns
         and related forms and schedules through MeF Release 7.0 during Processing Year2 2012.
         A. Determined whether the IRS adequately evaluated the MeF system prior to the
            2012 Filing Season.
             1. Obtained and analyzed IRS validation plans and results referred to as “Post
                Production Validation” conducted in January 2012.
             2. Obtained statistics on volumes of tax returns accepted and rejected by the MeF
                system and analyzed the volumes of tax returns reviewed during the IRS
                validation period.
         B. Determined whether the MeF system properly accepted and rejected tax returns
            during the 2012 Filing Season.
             1. Obtained IRS statistics on volumes of electronic tax returns transmitted through
                the MeF system during the 2012 Filing Season and compared the reject rates to
                the 2011 Filing Season.



1
  The period from January through mid-April when most individual income tax returns are filed. However,
individuals may continue to file tax returns through October if they apply for an extension of time to file.
2
  The calendar year in which the tax return or document is processed by the IRS.
                                                                                                               Page 18
                                While Use of the Modernized e-File System
                              for Individual Tax Returns Has Increased, the
                            Legacy e-File System Is Still Needed As a Backup



             2. Obtained rejected individual tax return data from the MeF system. We utilized
                these data to determine whether the MeF system was correctly rejecting
                individual tax returns. We validated the reliability of the data by comparing it
                with the Employee User Portal data.3
             3. Obtained the MeF system individual income tax return data that were accepted
                and processed from the weekly IRS Individual Return Transaction File4 for all
                accepted and processed tax returns. We utilized these data to determine whether
                the accepted tax forms and schedules were correctly processed. We validated the
                reliability of the IRS’s Individual Return Transaction File computer-processed
                data by comparing the data with the IRS’s Integrated Data Retrieval System5 and
                Employee User Portal data.
        C. Determined whether the MeF system properly accounted for all tax returns received
           into the system during the 2012 Filing Season.
Internal controls methodology	
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the controls in place to ensure 1) all of the
error reject codes included in the Legacy e-File system were included in the MeF system, 2) tax
returns were properly accepted or rejected by the MeF system, and 3) tax returns were properly
accounted for in the MeF system. We tested these controls by reviewing and analyzing relevant
documents and data and conducting a survey of State taxing authorities and approved MeF
system transmitters.




3
  IRS computer system used to review tax return information transmitted through the MeF system.
4
  The Individual Return Transaction File contains all edited, transcribed, and error-corrected data from the
Form 1040 (U.S. Individual Income Tax Return) series and related forms and schedules for the current processing
year and two prior years.
5
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                         Page 19
                           While Use of the Modernized e-File System
                         for Individual Tax Returns Has Increased, the
                       Legacy e-File System Is Still Needed As a Backup



                                                                             Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Inspector General for Audit (Returns Processing and Account
Services)
Russell Martin, Director
Deann Baiza, Acting Audit Director
Sharla Robinson, Acting Audit Manager
Linna K Hung, Lead Auditor
Stephen Elix, Auditor
Denise Gladson, Auditor
Ryan Powderly, Auditor
Jack Laney, Audit Evaluator
James Allen, Information Technology Specialist
Kevin O’Gallagher, Information Technology Specialists
Martha Stewart, Information Technology Specialist
Steven Vandigriff, Information Technology Specialist




                                                                                      Page 20
                           While Use of the Modernized e-File System
                         for Individual Tax Returns Has Increased, the
                       Legacy e-File System Is Still Needed As a Backup



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Business Modernization Office, Wage and Investment Division SE:W:BMO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:RICS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Director, Stakeholder Partnership, Education, and Communications, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                     Page 21
                                While Use of the Modernized e-File System
                              for Individual Tax Returns Has Increased, the
                            Legacy e-File System Is Still Needed As a Backup



                                                                                              Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
Revenue Protection – Potential; $3,051,428 tax effect for exemptions allowed in error for
Taxpayer Identification Numbers previously claimed on another tax return as a result of issues
with the MeF business rules that prevent multiple Taxpayer Identification Number uses (see
page 9).

Methodology Used to Measure the Reported Benefit:
We identified 5,870 Tax Year 2011 tax returns on the IRS Individual Return Transaction File1
that were processed by the MeF system in Processing Year2 2012 and claimed an exemption for a
Taxpayer Identification Number that was previously claimed as an exemption on another tax
return for the same tax year.3 The Internal Revenue Code states that an individual can only be
used once in each tax year for the purposes of claiming an exemption. The tax returns were
incorrectly accepted due to issues with the programming of the MeF business rules that reject tax
returns with multiple Taxpayer Identification Number uses.
To determine the tax effect of the improper exemptions, we first computed the amount of the
exemptions claimed using a Taxpayer Identification Number that was previously claimed on
another tax return and then computed the amount of the improper exemptions that was used to
offset taxable income on each of the tax returns. We then computed the tax effect of the
improper exemptions on each tax return. We multiplied the amount of the improper exemption
by the marginal tax rate for each tax return that was determined using the IRS’s tax rate
schedules for Tax Year 2011. Using this methodology, we estimate the total tax effect of the
exemptions claimed for Taxpayer Identification Numbers that were previously claimed on
another tax return was $3,051,428.

1
  The Individual Return Transaction File contains all edited, transcribed, and error-corrected data from the
Form 1040 (U.S. Individual Income Tax Return) series and related forms and schedules for the current processing
year and two prior years.
2
  The calendar year in which the tax return or document is processed by the IRS.
3
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                         Page 22
                                 While Use of the Modernized e-File System
                               for Individual Tax Returns Has Increased, the
                             Legacy e-File System Is Still Needed As a Backup



Type and Value of Outcome Measure:
Revenue Protection – Potential; $1,748,127 ($8,740,635 over five years) tax effect for additional
standard deductions allowed in error (see page 9).

Methodology Used to Measure the Reported Benefit:
***************************************2(f)********************************
*****************************************2(f)*********************************
******************************************2(f)********************************
on the IRS National Account Profile.4 *******************2(f)*********************
*****************************************2(f)*********************************
*****************************************2(f)********************************
******************************2(f)*********************.
To determine the tax effect of the improper additional standard deductions, we first computed the
amount of the improper standard deduction that was used to offset taxable income on each of the
tax returns. We then computed the tax effect of the improper additional standard deductions on
each tax return. We multiplied the amount of the improper standard deduction by the marginal
tax rate for each tax return that was determined using the IRS’s tax rate schedules for Tax
Year 2011. ********************************2(f)********************************
***********************************2(f)**********************************. We
estimate the tax effect of these improper additional standard deductions over the next five years
will total $8,740,635.




4
  The National Account Profile is a compilation of selected entity data from the IRS Master Files, which are the
databases that store various taxpayer information. The National Account Profile includes all valid and invalid
taxpayer entity information.
                                                                                                           Page 23
                            While Use of the Modernized e-File System
                          for Individual Tax Returns Has Increased, the
                        Legacy e-File System Is Still Needed As a Backup



                                                                               Appendix V

        Individual Tax Return Forms and Schedules
                Added for Processing in the
           Modernized e-File System Release 7.0

Form 1040A – U.S. Individual Income Tax Return
Form 1040EZ – Income Tax Return for Single and Joint Filers With No Dependents
Form 1040 Schedule C-EZ – Net Profit From Business (Sole Proprietorship)
Form 1040 Schedule F – Profit or Loss From Farming
Form 1040 Schedule H – Household Employment Taxes
Form 1040 Schedule J – Income Averaging for Farmers and Fishermen
Form 1040 SS (PR) – U.S. Self-Employment Tax Return (Including the Additional Child Tax
Credit for Bona Fide Residents of Puerto Rico)
Form 1116 – Foreign Tax Credit (Individual, Estate, or Trust)
Form 1310 – Statement of Person Claiming Refund Due a Deceased Taxpayer
Form 2106-EZ – Unreimbursed Employee Business Expenses
Form 2120 – Multiple Support Declaration
Form 2210-F – Underpayment of Estimated Tax by Farmers and Fishermen
Form 2350 – Application for Extension of Time to File U.S. Income Tax Return
Form 2439 – Notice to Shareholder of Undistributed Long-Term Capital Gains
Form 2555 – Foreign Earned Income
Form 2555-EZ – Foreign Earned Income Exclusion
Form 3468 – Investment Credit
Form 3800 – General Business Credit


                                                                                    Page 24
                           While Use of the Modernized e-File System
                         for Individual Tax Returns Has Increased, the
                       Legacy e-File System Is Still Needed As a Backup



Form 3903 – Moving Expenses
Form 4136 – Credit for Federal Tax Paid on Fuels
Form 4137 – Social Security and Medicare Tax on Unreported Tip Income
Form 4255 – Recapture of Investment Credit
Form 4563 – Exclusion of Income for Bona Fide Residents of American Samoa
Form 4684 – Casualties and Thefts
Form 4797 – Sales of Business Property
Form 4835 – Farm Rental Income and Expenses
Form 4952 – Investment Interest Expense Deduction
Form 4970 – Tax on Accumulation Distribution of Trusts
Form 4972 – Tax on Lump-Sum Distributions
Form 5074 – Allocation of Individual Income Tax to Guam or the Commonwealth of the
Northern Mariana Islands (CNMI)
Form 5329 – Additional Taxes on Qualified Plans (Including IRAs) and Other Tax-Favored
Accounts
Form 5405 – First-Time Homebuyer Credit and Repayment of the Credit
Form 5471 – Information Return of U.S. Persons With Respect to Certain Foreign Corporations
Form 5471 (Schedule J) – Accumulated Earnings and Profits (E&P) of Controlled Foreign
Corporation
Form 5471 (Schedule M) – Transactions Between Controlled Foreign Corporation and
Shareholders or Other Related Persons
Form 5471 (Schedule O) – Organization or Reorganization of Foreign Corporation, and
Acquisitions and Dispositions of Its Stock
Form 56 – Notice Concerning Fiduciary Relationship
Form 5695 – Residential Energy Credits
Form 5713 – International Boycott Report

                                                                                      Page 25
                           While Use of the Modernized e-File System
                         for Individual Tax Returns Has Increased, the
                       Legacy e-File System Is Still Needed As a Backup



Form 5713 (Schedule A) – International Boycott Factor (Section 999(c)(1))
Form 5713 (Schedule B) – Specifically Attributable Taxes and Income (Section 999(c)(2))
Form 5713 (Schedule C) – Tax Effect of the International Boycott Provisions
Form 5884 – Work Opportunity Credit
Form 5884-A – Credits for Affected Midwestern Disaster Area Employees
Form 5884-B – New Hire Retention Credit
Form 6198 – At-Risk Limitations
Form 6251 – Alternative Minimum Tax – Individuals
Form 6252 – Installment Sale Income
Form 6478 – Alcohol and Cellulosic Biofuel Fuels Credit
Form 6765 – Credit for Increasing Research Activities
Form 6781 – Gains and Losses From Section 1256 Contracts and Straddles
Form 8082 – Notice of Inconsistent Treatment or Administrative Adjustment Request (AAR)
Form 8275 – Disclosure Statement
Form 8275-R – Regulation Disclosure Statement
Form 8379 – Injured Spouse Allocation
Form 8396 – Mortgage Interest Credit
Form 8582 – Passive Activity Loss Limitations
Form 8582-CR – Passive Activity Credit Limitations
Form 8586 – Low-Income Housing Credit
Form 8594 – Asset Acquisition Statement Under Section 1060
Form 8606 – Nondeductible IRAs
Form 8609-A – Annual Statement for Low-Income Housing Credit
Form 8611 – Recapture of Low-Income Housing Credit

                                                                                    Page 26
                            While Use of the Modernized e-File System
                          for Individual Tax Returns Has Increased, the
                        Legacy e-File System Is Still Needed As a Backup



Form 8615 – Tax for Certain Children Who Have Investment Income of More Than $1,900
Form 8621 – Information Return by a Shareholder of a Passive Foreign Investment Company or
Qualified Electing Fund
Form 8689 – Allocation of Individual Income Tax to the U.S. Virgin Islands
Form 8697 – Interest Computation Under the Look-Back Method for Completed Long-Term
Contracts
Form 8801 – Credit for Prior Year Minimum Tax – Individuals, Estates, and Trusts
Form 8814 – Parent’s Election to Report Child’s Interest and Dividends
Form 8815 – Exclusion of Interest From Series EE and I U.S. Savings Bonds Issued After 1989
Form 8820 – Orphan Drug Credit
Form 8824 – Like-Kind Exchanges
Form 8826 – Disabled Access Credit
Form 8828 – Recapture of Federal Mortgage Subsidy
Form 8833 – Treaty-Based Return Position Disclosure Under Section 6114 or 7701(b)
Form 8834 – Qualified Plug-in Electric and Electric Vehicle Credit
Form 8835 – Renewable Electricity, Refined Coal, and Indian Coal Production Credit
Form 8844 – Empowerment Zone and Renewal Community Employment Credit
Form 8845 – Indian Employment Credit
Form 8846 – Credit for Employer Social Security and Medicare Taxes Paid on Certain
Employee Tips
Form 8853 – Archer MSAs and Long-Term Care Insurance Contracts
Form 8859 – District of Columbia First-Time Homebuyer Credit
Form 8862 – Information to Claim Earned Income Credit After Disallowance
Form 8864 – Biodiesel and Renewable Diesel Fuels Credit
Form 8865 – Return of U.S. Persons With Respect to Certain Foreign Partnerships


                                                                                     Page 27
                            While Use of the Modernized e-File System
                          for Individual Tax Returns Has Increased, the
                        Legacy e-File System Is Still Needed As a Backup



Form 8865 (Schedule K-1) – Partner’s Share of Income, Deductions, Credits, etc.
Form 8865 (Schedule O) – Transfer of Property to a Foreign Partnership (under section 6038B)
Form 8865 (Schedule P) – Acquisitions, Dispositions, and Changes of Interests in a Foreign
Partnership
Form 8866 – Interest Computation Under the Look-Back Method for Property Depreciated
Under the Income Forecast Method
Form 8867 – Paid Preparer’s Earned Income Credit Checklist
Form 8873 – Extraterritorial Income Exclusion
Form 8874 – New Markets Credit
Form 8881 – Credit for Small Employer Pension Plan Startup Costs
Form 8882 – Credit for Employer-Provided Child Care Facilities and Services
Form 8885 – Health Coverage Tax Credit
Form 8886 – Reportable Transaction Disclosure Statement
Form 8889 – Health Savings Accounts (HSAs)
Form 8891 – U.S. Information Return for Beneficiaries of Certain Canadian Registered
Retirement Plans
Form 8896 – Low Sulfur Diesel Fuel Production Credit
Form 8900 – Qualified Railroad Track Maintenance Credit
Form 8903 – Domestic Production Activities Deduction
Form 8906 – Distilled Spirits Credit
Form 8907 – Nonconventional Source Fuel Credit
Form 8908 – Energy Efficient Home Credit
Form 8909 – Energy Efficient Appliance Credit
Form 8910 – Alternative Motor Vehicle Credit
Form 8911 – Alternative Fuel Vehicle Refueling Property Credit


                                                                                       Page 28
                           While Use of the Modernized e-File System
                         for Individual Tax Returns Has Increased, the
                       Legacy e-File System Is Still Needed As a Backup



Form 8912 – Credit to Holders of Tax Credit Bonds
Form 8917 – Tuition and Fees Deduction
Form 8919 – Uncollected Social Security and Medicare Tax on Wages
Form 8925 – Report of Employer-Owned Life Insurance Contracts
Form 8930 – Qualified Disaster Recovery Assistance Retirement Plan Distributions and
Repayments
Form 8931 – Agricultural Chemicals Security Credit
Form 8932 – Credit for Employer Differential Wage Payments
Form 8933 – Carbon Dioxide Sequestration Credit
Form 8936 – Qualified Plug-in Electric Drive Motor Vehicle Credit
Form 8938 (PDF) – Statement of Foreign Financial Assets
Form 8941 – Credit for Small Employer Health Insurance Premiums
Form 8949 – Sales and Other Dispositions of Capital Assets
Form 9465 – Installment Agreement Request
Form 970 – Tax Benefits for Education
Form 982 – Reduction of Tax Attributes Due to Discharge of Indebtedness (and Section 1082
Basis Adjustment)
Form T (Timber) – Forest Activities Schedule
W-2AS – American Samoa Wage and Tax Statement (Info Copy Only)
W-2CM – Commonwealth of the Northern Mariana Island Wage and Tax Statement (Info Copy
Only)
W-2G – Certain Gambling Winnings
W-2GU – Guam Wage and Tax Statement (Info Copy Only)
W-2VI – U.S. Virgin Islands Wage and Tax Statement (Info Copy Only)
499R-2/W-2PR – Record of Puerto Rico Withholding


                                                                                       Page 29
                           While Use of the Modernized e-File System
                         for Individual Tax Returns Has Increased, the
                       Legacy e-File System Is Still Needed As a Backup




                                                                              Appendix VI

  Treasury Inspector General for Tax Administration
    Audit Reports on the Modernized e-File System

TIGTA, Ref. No. 2010-20-041, Modernized e-File Will Enhance Processing of Electronically
Filed Individual Income Tax Returns, but System Development and Security Need Improvement
(May 2010).
TIGTA, Ref. No. 2010-40-111, System Errors and Lower Than Expected Tax Return Volumes
Affected the Implementation of the Modernized e-File System for Individual Tax Return
Processing (Sept. 2010).
TIGTA, Ref. No. 2011-20-088, The Modernized e-File Release 6.2 Included Enhancements,
but Improvements Are Needed for Tracking Performance Issues and Security Weaknesses
(Sept. 2011).
TIGTA, Ref. No. 2011-40-131, Low Participation and Tax Return Volumes Continue to Hinder
the Transition of Individual Income Tax Returns to the Modernized e-File System (Sept. 2011).
                                                




                                                                                      Page 30
            While Use of the Modernized e-File System
          for Individual Tax Returns Has Increased, the
        Legacy e-File System Is Still Needed As a Backup



                                                  Appendix VII

Management’s Response to the Draft Report




                                                           Page 31
    While Use of the Modernized e-File System
  for Individual Tax Returns Has Increased, the
Legacy e-File System Is Still Needed As a Backup




                                                   Page 32
    While Use of the Modernized e-File System
  for Individual Tax Returns Has Increased, the
Legacy e-File System Is Still Needed As a Backup




                                                   Page 33
    While Use of the Modernized e-File System
  for Individual Tax Returns Has Increased, the
Legacy e-File System Is Still Needed As a Backup




                                                        


                                                   Page 34
